J
2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.
PAMELA DIANE STARK,
Petitioner,
v.
JOE EDWARD STARK,
Respondent
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6048 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

rs

GENERAL KOTARY-State of Nebraska I
RENEE J. GOSS
I
My Com®. Exp. September S, 20231

Notary Public

Affiant

40465

